                                                                             Report No. DODIG-2013-115




              I nspec tor Ge ne ral
                                                       Department of Defense

              AUGUST 7, 2013




                     The Navy’s Management
                     of Software Licenses
                     Needs Improvement




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
           I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                              Mission
            Our mission is to provide independent, relevant, and timely
            oversight of the Department of Defense that: supports the
            warfighter; promotes accountability, integrity, and efficiency;
            advises the Secretary of Defense and Congress; and informs
                                                the public.


                                                Vision
            Our vision is to be a model oversight organization in the federal
            government by leading change, speaking truth, and promoting
            excellence; a diverse organization, working together as one
                 professional team, recognized as leaders in our field.




                            Fraud, Waste and Abuse
                           HOTLINE
                           1.800.424.9098 • www.dodig.mil/hotline




For more information about the whistleblower protection, please see the inside back cover.
                                                FOR OFFICIAL USE ONLY


                                   Results in Brief
                                   The Navy’s Management of Software Licenses
                                   Needs Improvement



August 7, 2013                                         Findings Continued

Objective                                              necessary training to gain the specialized knowledge needed
                                                       to write software license contracts or review EULAs properly.
Our objective was to determine whether the             As a result, the DON increased the risk of wasteful spending,
Department of the Navy (DON) effectively managed       disruption to Government operations, and vulnerability to
software licenses. Specifically, we determined         lawsuits, claims, and penalties.
whether the DON included appropriate clauses
in software license contracts.     We reviewed
1  Enterprise Licensing Agreement (ELA), 13  non-      Recommendations
ELAs, and the associated End User License              We recommend that the Assistant Secretary of the Navy (Research,
Agreements (EULAs) to determine if the contracts       Development, and Acquisition) (ASN[RDA]) require all DON
included desirable language in accordance with         contracting personnel involved in preparing and issuing software
the DoD Enterprise Software Initiative approved        license contracts to take specialized training on using appropriate
software licensing training.                           language in software acquisition contracts.


Findings                                               We recommend that the DON Chief Information Officer (CIO):

Overall, the DON made progress toward                     •	 require personnel to include favorable language expressed
the mandated use of DON ELAs by issuing                      in warranty and embedded third-party software sections of
a $700  million ELA for Microsoft software.                  the software licensing training when preparing ELAs for the
However, the ELA included unacceptable                       remaining software on DONs proposed list; and
language in 2 of the 11 best practice areas we
                                                          •	 issue a memo identifying the types of training available for
identified in software licensing training.
                                                             determining the appropriate language needed to include and
                                                             avoid in software license contracts.
In addition, the DON non-ELA software license
contracts reviewed, valued at $8.1 million,
included unacceptable language for contract            Management Comments and
clauses in 7 of the 11 areas of concern listed in      Our Responses
the software licensing training. Furthermore,
                                                       The Executive Director for the Deputy Assistant Secretary
8 of the 13 DON contracting officers accepted
                                                       of the Navy for Acquisition and Policy, responding for
EULAs containing unacceptable language.
                                                       ASN(RDA), comments were responsive for both recommendations.
This occurred because no established                   The DON CIO comments were responsive to two of three and
requirements existed to guide contracting              partially responsive to one of three of the recommendations. We
personnel in making a determination on                 request that the DON CIO provide revised comments to the final by
whether to include specific clause language in         September 9, 2013. Please see the Recommendations Table on the
software license contracts. Furthermore, 11 of         back of this page.
the 13 contracting officers did not receive the

Visit us on the web at www.dodig.mil

                                                                           DODIG-2013-115 (Project No. D2012-D000LB-0177.000) │ i
                   Recommendations Table
                                                                 Recommendations       No Additional
                                    Management                   Requiring Comment   Comments Required
                    Assistant Secretary of the Navy (Research,                            1.a, 1.b
                    Development, and Acquisition)
                    Department of the Navy                              2.c               2.a, 2.b
                    Chief Information Officer
                    *Please provide comments by September 9, 2013.




ii │ DODIG-2013-115 (Project No. D2012-D000LB-0177.000)
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                              4800 MARK CENTER DRIVE
                           ALEXANDRIA, VIRGINIA 22350-1500


                                                                            August 7, 2013

MEMORANDUM FOR DEPARTMENT OF THE NAVY ASSISTANT SECRETARY
		 OF THE NAVY (RESEARCH, DEVELOPMENT, AND
		ACQUISITION)
	              DEPARTMENT OF THE NAVY CHIEF INFORMATION
		OFFICER

SUBJECT: The Navy’s Management of Software Licenses Needs Improvement
	        (Report No. DODIG-2013-115)

We are providing this report for your review and comment. The Department of the Navy
made progress in its management of software licensing by issuing an Enterprise Licensing
Agreement for Microsoft, which included best practice language for the acquisition
of software licenses. However, the 13 non-Enterprise Licensing Agreement software
contracts we reviewed did not include desired best practice language. As a result, the
Department of the Navy increased the potential of wasteful spending, disruption of
Government operations, and vulnerability to lawsuits, claims, and penalties.

We considered management comments on a draft of this report when preparing the final
report. DoD Directive 7650.3 requires that recommendations be resolved promptly.
The Executive Director, Deputy Assistant Secretary of the Navy for Acquisition and
Procurement comments for Recommendations 1.a and 1.b, responding for Assistant
Secretary of the Navy (Research, Development and Acquisition) were responsive and no
further comments are needed. The Department of the Navy Chief Information Officer also
provided comments that were responsive on Recommendations 2.a and 2.b; however,
comments on Recommendation 2.c were only partially responsive. Therefore, we request
additional comments on this recommendation by September 9, 2013.

If possible, send a portable document format (.pdf) file containing your comments
to audros@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the /Signed/ symbol
in place of the actual signature. If you arrange to send classified comments electronically,
you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me
at (703) 604-8907 (DSN 664-8907). If you desire, we will provide a formal briefing on
the results.




	                                              Alice F. Carey
	                                              Assistant Inspector General
	                                              Readiness, Operations, and Support



                                                                                           DODIG-2013-115 │ iii
                  Contents
                  Introduction______________________________________________________________________________1
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  DoD Software License Policy____________________________________________________________________2
                  Review of Internal Controls _ ___________________________________________________________________4

                  Finding_______________________________________________________________________________________5
                  Improvement Needed in the Software Licensing Acquisition Process_______________________5
                  Microsoft Enterprise Licensing Agreement Awarded to Reduce Costs______________________5
                  Microsoft Enterprise Licensing Agreement Included Unacceptable Language_____________6
                  Non-Enterprise Licensing Agreement Contracts
                      Did Not Include Best Practice Clauses___________________________________________________8
                  End User License Agreement Language Did Not Benefit DoD _____________________________ 10
                  Clauses Specific to Software License Acquisitions Were Not Required____________________ 11
                  Contracting Officers Did Not Receive and Were Often Unaware of
                       Specific Training for Writing Software License Contracts ___________________________ 12
                  Increased Risk of Wasteful Spending, Government Disruption,
                       Software Vendor Claims and Other Related Disputes ________________________________ 14
                  Management Comments on the Finding and Our Response________________________________ 15
                  Recommendations, Management Comments, and Our Response__________________________ 15

                  Appendix. Scope and Methodology_________________________________ 19
                  Use of Computer-Processed Data ____________________________________________________________ 20
                  Use of Technical Assistance___________________________________________________________________ 20
                  Prior Coverage_ ________________________________________________________________________________ 20

                  Management Comments_____________________________________________________ 21
                  Deputy Assistant Secretary of the Navy for Acquisition and Procurement________________ 21
                  Department of the Navy Chief Information Officer _________________________________________ 23

                  Acronyms and Abbreviations______________________________________________ 26




iv │ DODIG-2013-115
                                                                                                                              Introduction




Introduction
Objective
The overall objective of the audit was to determine whether the Navy was effectively
managing software licenses. Specifically, we determined whether the Navy included
appropriate clauses in software procurement contracts. We initially planned to review
clauses along with how the Navy managed its inventory of software licenses. However,
to provide more timely and relevant results to the Department of the Navy (DON), we
narrowed the focus to only appropriate clauses in software license contracts.


Background
During the past 8 years, vendors have made claims against military Services because
DoD did not include appropriate language in software contracts or because DoD
accepted inappropriate terms in the vendor-prepared End User License Agreements
(EULAs1). According to the Chief Knowledge Officer within the U.S. Army Acquisition
Support Center, when software contracts are not written carefully, the contract and EULA
may also violate the Federal Acquisition Regulation (FAR). The following are examples
of problems encountered by DoD because of the lack of adequate clauses written in the
contract or inappropriate terms accepted in a EULA.

            •	 In an instance involving Navy lease-to-own licenses for Oracle applications,
                DLT Solutions, an Oracle reseller, sued the Army2 because the initial contract
                included a non-substitution clause: “The Government agrees not to replace
                the equipment and/or software leased under this order with functionally
                similar equipment and/or software.” The claim, including appeals, lasted
                from 2004 until 2010, and resulted in a settlement with the Government
                paying DLT Solutions $1.2 million. The DoD could have avoided the lawsuit
                had it been aware of the clause in the contract that created this risk.

            •	 According to U.S. Army Acquisition Support Center personnel, the Army had
                to renegotiate a contract to avoid spending more than $40 million to
                repurchase 80,000 user licenses at a cost of $500 per license. The licenses
                were for troops deploying from home stations that already had licenses.
                However, the Army did not initially include a “Times of Conflict” clause that
                would have prevented the Army from having to purchase new licenses for the
                deployed troops.

	1	
    A EULA is the comprehensive license agreement between the Government and a publisher or reseller that lists the
    end user’s rights. Additional names for a EULA include but are not limited to Purchaser Use Rights, Software License
    Agreement, or Software User Rights Agreement.
	2	
    The Army issued the contract for $6.9 million on behalf of the Navy.


                                                                                                                           DODIG-2013-115 │ 1
Introduction



                          •	 In 2011, a vendor contract contained language in the EULA that violated
                               FAR  52-212-4, “Contract Terms and Conditions–Commercial Items.”
                               Specifically, the EULA stated, “Customer rights under the agreement will
                               terminate immediately without notice from vendor if Customer fails to
                               comply with any provisions of the Agreement.” This violates FAR 52-212-4,
                               which requires a contractor to continue performance in the event of a dispute
                               between the contractor and the Government.

                 Software acquisition contracts that do not include appropriate language can also increase
                 the risk of compromising sensitive DoD information. For example, when contracts do
                 not include language that limits who can perform an audit of software the Government
                 acquires, the contractor could have an audit performed by a third-party auditor who
                 could access unauthorized sensitive Government information.

                 The above examples underscore the need for contracting officers to include appropriate
                 clause language in software acquisition contracts and to accept only EULAs that contain
                 the appropriate language that will protect the Government’s best interest.


                 DoD Software License Policy
                 The Defense Federal Acquisition Regulation Supplement (DFARS) 227.7202, “Commercial
                 computer software and commercial computer software documentation,” states that
                 commercial computer software shall be acquired under the licenses customarily provided
                 to the public unless the licenses are inconsistent with Federal law or don’t satisfy
                 user needs.

                 DFARS 208.7402, “General,” also applies to all commercial software. The DFARS states that
                 departments and agencies shall fulfill requirements for commercial software and related
                 services, such as software maintenance, in accordance with the DoD Enterprise Software
                 Initiative (ESI). This initiative includes the DoD ESI Software Buyers Checklist, which
                 provides a standardized set of steps to follow when using the ESI’s enterprise software
                 agreements. The Software Buyers Checklist states that DoD information technology
                 buyers reduce buying cycle time and risk by using ESI enterprise software agreements
                 with enhanced terms and conditions that support many DoD objectives and industry
                 best practices.

                 The DoD ESI is an official DoD initiative sponsored by the DoD Chief Information Officer
                 (CIO) to save time and money on commercial software, Information Technology (IT)
                 hardware, and services. The DoD ESI’s mission is to lead in the establishment and
                 management of enterprise commercial off-the-shelf IT agreements, assets, and policies



2 │ DODIG-2013-115
                                                                                                                                     Introduction



for the purpose of lowering total cost of ownership across the DoD, Coast Guard, and
intelligence communities. The mission extends across the entire commercial IT life cycle,
leveraging the DoD’s combined buying power with commercial software publishers,
hardware vendors, and service providers.

The Computer Hardware Enterprise Software and Solutions (CHESS) is the Army’s
designated “primary source” for commercial IT.                               CHESS provides a no-fee, flexible
procurement strategy through which an Army user may procure commercial off-the-shelf
IT hardware, software, and services via an e-commerce (IT e-mart). According to the
Project Director of Enterprise Solutions Division, CHESS is also the Army’s representative
to the DoD ESI.

In 2009, the Army CHESS staff created a set of charts and briefings specifically dedicated
to software issues shared with other DoD agencies and presented at several events as a
portion of an overall CHESS briefing. The software licensing training developed into a
stand-alone training in 2010. The DoD ESI also began working with a support contractor
to keep the charts updated and provide more examples. Currently, the CHESS software
licensing training, titled “Software that Goes Bump in the Night Brief,” includes best
practices for software licenses acquisition contracts. The same training is also provided
through ESI, “Software Licensing Training: Acquiring Licenses in These Changing Times.”

The training presents the top 12 areas of concern with the most common issues identified
in EULAs and contracts. Specifically, it gives the suggested DoD Software Buyer Checklist
requirements for 11 (excludes maintenance) of the areas and includes examples of
acceptable and unacceptable language to look for in contracts and EULAs for each area.
The 11 specific areas are:

            •	 warranty,

            •	 transfer rights,

            •	 third-party software,3

            •	 audit rights,

            •	 click wrap licenses,4

            •	 automatic renewals,


	3	
    Software associated with a product that DoD purchases but is owned by a vendor other than the vendor DoD purchased
    the product from.
	4	
    A statement or notice provided to software user from the vendor that states that by clicking accept, the user agrees to all
    terms of the vendor’s license agreement.




                                                                                                                                  DODIG-2013-115 │ 3
Introduction



                               •	 termination rights,

                               •	 governing law,

                               •	 order of precedence,

                               •	 installation restrictions, and

                               •	 virtualization.5

                 In February 2012, DON issued a memorandum, “Mandatory Use of Department of the
                 Navy Enterprise Licensing Agreements,” which requires all DON organizations to make
                 software licenses purchases using DON Enterprise Licensing Agreement (ELA)6 contracts
                 when available. The memorandum also states that all DON organizations and programs
                 can achieve maximum cost savings by using enterprise vehicles as the means of procuring
                 software products.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
                 July  29, 2010, requires DoD organizations to implement a comprehensive system of
                 internal controls that provide reasonable assurance that programs are operating as
                 intended and to evaluate the effectiveness of the controls. We identified an internal control
                 weakness in the DON software license contracting process. Specifically, DON did not have
                 requirements in place for contracting personnel to make a determination on whether to
                 include specific clause language in software license contracts. Further, DON contracting
                 personnel did not have the necessary training to gain the specialized knowledge to write
                 software license contracts properly. We will provide a copy of the report to the senior
                 official(s) responsible for internal controls in the DON.




                 	5	
                       Creation of a virtual (rather than an actual) version of something, such as an operating system or server.
                 	6	
                       An ELA is a contract document used to purchase software and contains the names and types of software as well as the
                       amount the purchaser is allowed to spend toward the software for a given period of time.




4 │ DODIG-2013-115
                                                                                                                                Finding




Finding
Improvement Needed in the Software Licensing
Acquisition Process
In May 2012, the DON made progress toward the mandated use of DON ELAs by issuing
a $700 million ELA for Microsoft software. However, the ELA included unacceptable
language for embedded third-party software and warranty, which are 2 of the 11 areas of
concern with best practices identified in the DoD ESI approved software licensing training.
In addition, the 13 DON non-ELA software license contracts, valued at $8.1 million,
included unacceptable language for contract clauses in 7 of the 11 areas of concern listed
in the software licensing training. Furthermore, 8 of the 13 DON contracting officers
accepted EULAs that contained unacceptable language such as inadequate warranty and
transfer rights that did not benefit the DoD.

This occurred because the DON had no established requirements for contracting
personnel to make a determination on whether to include specific clause language in
software license contracts. In addition, 11 of 13 contracting officers did not receive the
necessary training to gain the specialized knowledge needed to write software license
contracts or review EULAs properly. As a result, the DON increased risk of wasteful
spending, disruption to Government operations, and vulnerability to lawsuits, claims,
and penalties.



Microsoft Enterprise Licensing Agreement Awarded
to Reduce Costs
DON showed progress in managing software licenses by awarding a Microsoft ELA7 in
May 2012 in accordance with the DON February 2012 memorandum. The ELA allows
the DON as well as General Services Administration or other organizations ordering on
behalf of DON to place orders for Microsoft software licenses. In addition, according to
the memorandum, using the ELA to obtain software will help the DON achieve maximum
cost savings. The Microsoft ELA is the only ELA the DON has issued to date. According
to DON CIO personnel, they are adapting the use of ELA contracts for all software
license procurements, as mandated by the February 2012 memorandum, but Microsoft
was implemented first because of its wide use throughout the Navy. A proposed list


	7	
      The Microsoft ELA is a blanket purchase agreement between DON and a contractor to purchase Microsoft products.




                                                                                                                       DODIG-2013-115 │ 5
Finding



                 of 14  additional DON ELA opportunities in the February 2012 memorandum included
                 Cisco, Oracle, Adobe, Symantec, Xerox, and VMware, among others, for future
                 consideration. The memorandum also stated that the DON CIO would post the projected
                 award dates of the potential opportunities to an access-controlled website linked to the
                 CIO website once dates were determined.

                 According to DON CIO personnel, they have determined projected dates for 11 of
                 the remaining 14 DON ELA opportunities listed in the memorandum and provided a
                 timeline that reflected six opportunities planned for this fiscal year and five in FY 2014.
                 Furthermore, they stated that they will not pursue three of the opportunities because they
                 determined that the opportunities were considered low volume based on initial review.


                 Microsoft Enterprise Licensing Agreement Included
                 Unacceptable Language
                 The ELA for Microsoft software and associated product use rights document (EULA
                 equivalent) included unacceptable language in 2 of 11 areas identified as areas of
                 concern. Specifically, the product use rights document associated with the ELA included
                 unacceptable language in the areas of embedded third-party software and warranty.

                 The contracting officer that prepared the Microsoft ELA did not consider the risk when
                 he excluded language that would be in the best interest of the DoD in terms of third-party
                 embedded software. Specifically, the Microsoft Federal Product Use Rights document,
                 dated April 2012, attached to the Microsoft ELA stated, with regard to Windows embedded
                 products, “Despite anything to the contrary in the Included Microsoft Software Programs
                 section in the General License Terms, all Windows embedded products are governed
                 by their own license terms.” In other words, the DON must not only follow Microsoft’s
                 licensing terms but also must follow the licensing terms of the third-party vendors
                 whose products are embedded in Windows.

                 Although the above statement informed the DON they must follow the licensing terms
                 of third-party vendors, the Products Use Rights did not list the third parties or their
                 licensing terms. The DoD position in the DoD ESI approved software licensing training
                 is that DoD must be aware of the third-party software requirements to weigh the risk
                 to software procurement. The software licensing training also provides examples of
                 desired language for this situation, which would require the publisher of the software




6 │ DODIG-2013-115
                                                                                                                                        Finding



(in this case Microsoft) to ensure they obtained all necessary third-party licenses. In
addition, the training suggests language stating that the publisher complies with the
third‑party licenses and ensures that DoD’s use of the product will not be in conflict with
the third‑party license. In this instance the vendor should have included language that
protected the DoD, as intended by the examples provided in the software licensing training.
However, according to the contracting officer, the existence of embedded software was
not recognized as a risk during negotiations and therefore they did not weigh the risk of
third-party embedded software prior to awarding the DON Microsoft ELA.

In addition, the contracting officer accepted warranty disclaimer language in the
product use rights document that was not in the best interest of DON in terms of
protecting against potential defects in the software. Specifically, the product use rights
document included, in addition to the limited warranty, a disclaimer of warranties for
merchantability,8 fitness for a particular purpose, and satisfactory quality. The software
licensing training specifically lists disclaimers of these three warranties in an example of
unacceptable language when reviewing a disclaimer of warranties clause. However, the
Microsoft ELA includes FAR clause 52.212-4, which states that the contractor warrants
and implies the items delivered are merchantable and fit for use. Additionally, the general
terms and conditions in the contract state that the provisions of FAR 52.212-4 and the
ELA take precedence over any terms of the product use rights document. Therefore,
the FAR  52.212-4 warranty provisions for merchantability and fitness for a particular
purpose would prevail. Neither the provisions of FAR 52.212-4 nor the ELA specifically
names satisfactory quality or items such as “accuracy,” which is also included in the
product use rights disclaimer. The absence of these warranties imposes the risk on the
DON that it will have limited recourse if the product fails in these disclaimed areas.

According to the contracting officer, the warranty section of the contract was one of
the terms and conditions incorporated from the DoD ESI Microsoft blanket purchase
agreement; DON was not able to negotiate terms that differed from this agreement.
DON  CIO should determine whether it is in the Government’s interest to modify the
Microsoft enterprise license agreement regarding warranty and embedded third-party
software. In addition, the DON CIO should require personnel to include favorable
warranty and embedded third-party language when preparing ELAs for the remaining
software opportunities on the list, such as Cisco, Oracle, and Adobe, or document how
and why they determined and accepted the risk of not including the language.




	8	
      To disclaim merchantability means the vendor does not guarantee and will deny any claim for a software product that is
      not marketable or of commercially acceptable quality.




                                                                                                                               DODIG-2013-115 │ 7
Finding



                 Non-Enterprise Licensing Agreement Contracts
                 Did Not Include Best Practice Clauses
                 The DON could improve the 13 non-ELA contracts reviewed, valued at $8.1 million, by
                 including language provided in the software licensing training. Specifically, the audit team
                 reviewed 13 non-ELA software license contracts9 issued by 12 different DON contracting
                 offices and determined that none contained all the best practice language to ensure the
                 DON’s best interest was protected.

                 The DON non-ELA software license contracts included
                 unacceptable language for contract clauses in 7 of the                                                Of the
                                                                                                                   13 contracts,
                 11 areas of concern listed in the software licensing                                            none contained
                 training. For example, of the 13 contracts, none contained                                    acceptable language
                 acceptable language for warranty, transfer rights, or                                             for warranty,
                                                                                                                transfer rights, or
                 termination rights. One contract stated that the vendor is
                                                                                                                    termination
                 to provide a minimum 90-day warranty on all performed                                                 rights.
                 work/upgrades. However, the DoD position referenced in the
                 software licensing training recommends a warranty that states
                 the software shall meet specifications and requirements for 1 year from the first day the
                 product is used. In addition, for transfer rights, the software licensing training refers to
                 the DoD Buyer Checklist, which states the DoD buyer is to add language in the terms and
                 conditions of an order allowing for transfer of licenses within an affiliate of DoD or, at a
                 minimum, within the component (in this instance, DON). However, 12 of the 13 contracts
                 were silent to transfer rights. The one contract that included transfer rights stated that
                 the DON component that received the software recognized that the supplied software
                 was for the sole use of that facility. By both agreeing to terms that restricted sole use to
                 one facility and without any other terms on transfer rights, the contracts did not allow for
                 transfer within DoD or DON as the checklist suggests.

                 In addition, at least one contract contained unacceptable language in the areas of
                 audit rights, click wrap licenses, order of precedence, and installation restrictions. For
                 example, one contract was silent to both audit rights and click wrap licenses. If a contract
                 were silent on these two areas, we considered it acceptable as long as the EULA was
                 also silent, because this would mean there is also no unacceptable language present.
                 However, the EULA associated with the contract included unacceptable language in both
                 areas. For example, the EULA contained a statement that it is a legal agreement between


                 	9	
                       The audit team reviewed two contracts that were prepared by different contracting officers but issued from the same
                       contracting office, to verify a consistent pattern of terms.




8 │ DODIG-2013-115
                                                                                                               Finding



an individual or corporation and the vendor; by installing, copying, downloading, or
accessing the product, the individual or corporation agrees to the terms of the EULA. This
language is labeled as click wrap and considered unacceptable in the DoD ESI approved
software licensing training. The complete results of the non-ELA reviews are shown in
the table below.

             DON Results of Best Practice Language in 13 Non-ELA Contracts Reviewed
                                  Unacceptable             Acceptable                Desired
       11 Key Clauses              Language*               Language**              Language***
 Warranty                             13                        0                       0
 Transfer Rights                      13                        0                       0
 Third Party Software                  0                      13                        0
 Audit Rights                          1                      12                        0
 Click Wrap Licenses                   1                      12                        0
 Automatic Renewals                    0                      13                        0
 Termination Rights                   13                        0                       0
 Governing Law                         0                      12                        1
 Order of Precedence                   3                      10                        0
 Installation Restrictions             1                      12                        0
 Virtualization                        0                      13                        0
   *   Contract contained undesirable language or was silent (adds risk for certain clauses) on key
       clauses necessary to meet the intent of the best practices.
  **   Contract did not contain the desired language; however, the contract was either silent
       (acceptable for certain clauses) or contained comparable language, that was deemed
       acceptable to meet the intent of the best practices training.
 ***   Contract contained desired language from the best practices training


As shown in the table, the majority of the non-ELA contracts contained language we
determined was acceptable for 8 of the 11 key areas. However, most of these areas we
determined were acceptable because the contract was silent on the area and therefore did
not contain unacceptable language. Silence in these areas may help limit possible claims
or penalties the DoD could otherwise incur when certain language is found in contracts.
However, silence does not help ensure the best interest of the DoD is met as intended
by the desired language included in the DoD ESI approved software licensing training.
Although we identified issues in the non-ELA contracts, we determined it would not be
reasonable or efficient to reopen negotiations for these because of the dollar value of the
contracts versus the potential cost to renegotiate. In addition, the DON’s movement to
ELAs discussed in the Microsoft section should eventually eliminate or minimize the need
for these small contracts.




                                                                                                      DODIG-2013-115 │ 9
Finding



                 End User License Agreement Language
                 Did Not Benefit DoD
                 None of the eight EULAs reviewed contained appropriate language in all the best practice
                 areas. Our review of the EULAs associated with the non-ELA contracts showed that all
                 eight DON contracting officers accepted EULAs that contained unacceptable language
                 that did not benefit the DoD. Specifically, we reviewed EULAs for 8 of the 13 contracts
                 reviewed. For the remaining five contracts:

                            •	 one contracting officer stated that the vendor did not provide a EULA or any
                               other Software Agreement with the contract but provided an agreement to
                               the end users with the software;

                            •	 one contracting officer stated the contractor provided the end user with terms
                               and conditions after award of the contract but no agreement was received,
                               reviewed, or approved by the contracting office;

                            •	 one contracting officer was unsure whether a EULA existed and referred to
                               the original acceptor of the purchase requisition, who stated that he had no
                               written agreements with the vendor; and

                            •	 two contracting officers stated that the vendor did not provide a EULA or
                               equivalent document outlining the comprehensive agreement between the
                               Government and publisher or reseller.

                 Acceptable language for warranty, transfer rights, or termination rights, was not found
                 in any of the eight EULAs reviewed. One EULA, for example, stated that the licensor
                 warrants that the licensed program will conform to the published specifications for
                                           180 days from the date of shipment. This is far less than the best
                                               practice of 1  year from first use of the product, as stated in
                             Acceptable
                            language for         the software licensing training.       The remaining EULAs
                        warranty, transfer         either contained unacceptable language or were silent
                      rights, or termination       on these three areas. Because it is in the best interest of
                       rights was not found
                                                   DoD to have a warranty on software for at least 1 year, to
                         in any of the eight
                          EULAs reviewed.         be able to transfer a license within DoD, and to include
                                                 proper termination rights, we considered it unacceptable
                                               for EULAs to be silent in these areas.

                 In addition, one contracting officer accepted a EULA that included unacceptable language
                 for audit rights. Specifically, the EULA stated that during business hours, the vendor may
                 inspect the facility and records to verify compliance with the EULA for use of the software



10 │ DODIG-2013-115
                                                                                                     Finding



product purchased, throughout the term of service and for 1 year after. If noncompliance
was found, the DON organization was required to pay any underpayment amount within
15 days of receipt of a letter. In addition, if underpayment was more than 5 percent of
the amount DON should have paid based on the amount of software DON used, the DON
organization was required to reimburse the vendor for the amount incurred to conduct
their audit. The DoD position in the software training is that the Government should
perform self-audits and report the results to the contractor no more than once per year.

All the EULAs reviewed were silent in the areas of third-party software, click wrap
licenses, order of precedence, and virtualization. Because the software licensing training
provides examples of language contracting officers should recognize and avoid on these
topics, we considered the EULAs silence on these topics to be acceptable.

We found only two examples of desired language from the software licensing training
in any of the EULAs reviewed. One EULA contained desired language for automatic
renewals and another for governing law.       For example, one EULA stated “Licensee
(DON in this case) shall be notified of renewal options in advance of renewal periods.”
The inclusion of this statement in the EULA allows the DON to make a determination
whether to renew the software product at the end of the contract period, as opposed to
automatically renewing.


Clauses Specific to Software License Acquisitions Were
Not Required
The Assistant Secretary of the Navy (Research Development and Acquisitions)
(ASN [RDA]) did not develop or issue guidance on whether to include specific
clauses in software license contracts; therefore, DON contracts did not include the
appropriate best practice language. The Under Secretary
of the Navy issued a memorandum tasking the DON                         The
to use DoD  IT consolidation efforts. In addition,                  ASN (RDA)
ASN (RDA) and DON  CIO issued a memorandum                       lacked guidance
                                                              that included specific
tasking the DON to use DON ELAs to achieve
                                                            clauses or required Navy
maximum cost savings. However, the ASN (RDA)                 organizations to make a
lacked guidance that included specific clauses              determination on clauses
or required Navy organizations to make a                   contracting officers should
                                                              ensure are included in
determination on clauses contracting officers                    software license
should ensure are included in software license                      contracts.
contracts.   The   DFARS     includes   subparts    that




                                                                                           DODIG-2013-115 │ 11
Finding



                 address rights regarding computer software, computer software documentation,
                 enterprise software agreements, and acquisition procedures.          However, the DFARS
                 subparts prescribe policy and procedures for acquiring commercial software and
                 do not include desired, unacceptable, or recommended language for use in software
                 license contracts. In addition, DFARS Subpart  208.7402 instructs DoD departments
                 and agencies to fulfill requirements for commercial software in accordance with the
                 DoD ESI. The ESI, however, states only that the Software Buyers Checklist is a starting
                 point and does not state that departments and agencies must follow it.


                 Contracting Officers Did Not Receive and Were Often
                 Unaware of Specific Training for Writing Software
                 License Contracts
                 The contracts also did not include the appropriate best practice language because
                 contracting officers did not receive the necessary training to gain the specialized
                 knowledge to write software license contracts properly.            Specifically, 11 of the
                 13 contracting officers stated that they had not received specific training for acquiring
                 software licenses. One contracting officer who had received training stated that he had
                 ESI training a few years ago while working for the Army but had not taken any other
                 specific training for acquiring software licenses. The other contracting officer stated that
                 someone in their office who used ESI extensively provided them with informal training
                 but that she had not taken any other training. The ASN (RDA) should develop a plan of
                 action and milestones in conjunction with the DON CIO, to ensure that contracting officers
                 take software licensing training before issuing any future software license contracts.

                 Software licensing training that included best practice language was available for
                 contracting officers; however, ASN (RDA) did not require contracting officials to take the
                 training. The Army CHESS website includes briefing slides with the “ABCs of Software.”
                 According to CHESS officials, the goal is to provide website videos and tutorials in the
                 future. In addition, CHESS officials stated that DoD ESI is supplementing CHESS by offering
                 a 2-day commercial software training with a chapter on EULAs. However, ASN (RDA)
                 did not require contracting personnel to view the briefings or take the available training.
                 According to DON CIO personnel, they were not in a position to mandate this training
                 to DON contracting personnel, as policies and guidance for the acquisition workforce
                 are under the authority of the Chief Acquisition Officer. However, DON CIO personnel




12 │ DODIG-2013-115
                                                                                                     Finding



stated that planning was underway to offer training in FY 2013. During a meeting with
ASN  (RDA) and DON CIO personnel, they agreed that development of any guidance
involving contracting and software related topics is a joint effort between the two offices.

In many cases, DON contracting officers were not aware training was available.
Specifically, 8 of the 13 contracting officers stated that they were not aware of the
DoD ESI training or any other training specific to acquiring software
license agreements.     When asked whether they made
contracting personnel involved with acquisition of
                                                                     Specifically,
software licenses aware of the available training,                   8 of the 13
DON CIO personnel stated that they mentioned                    contracting officers
the availability of the ESI training during the DON           stated that they were
                                                             not aware of the DoD ESI
Information Management/IT conference held in                   training or any other
San Diego, California, and Virginia Beach, Virginia,             training specific to
during a “software licensing themed” training                    acquiring software
                                                                license agreements.
session. In addition, they stated that the software
licensing training content was provided to each student
on CD if they took the Defense Acquisition University Software
Acquisition Management 301 class.

Trainings were in place to address the acquisition of software licenses; however, the
trainings were ineffective if contracting officers were not required to take the training or
the DON CIO did not make them aware that the training was available. DON contracting
officers were made aware of the available trainings only if they attended one of the DON
conferences or took the Defense Acquisition University class. The DON CIO’s Director
of Enterprise Commercial Information Technology Strategy stated that in anticipation of
potential recommendations from our report, he authorized the posting of the DoD ESI
approved software licensing training to the DoD ESI webpage in March 2013. We verified
that “Software Licensing Training: Acquiring Licenses in These Changing Times” was
available as of March 2013. The DON CIO should develop and issue a memo identifying the
types of training available to contracting officers who prepare software license contracts;
this would allow contracting officers to determine the appropriate language needed in
the contracts, as well as provide guidance as to acceptable and unacceptable language
required in EULAs. Likewise, the ASN(RDA) should require all DON contracting officers
who prepare software license contracts and review EULAs, as well as contracting personnel
that review software license or software acquisitions contracts prior to issuance, to take
specialized training on using appropriate language in software acquisition contracts.




                                                                                           DODIG-2013-115 │ 13
Finding



                 Increased Risk of Wasteful Spending,
                 Government Disruption, Software Vendor Claims
                 and Other Related Disputes
                 The DON increases the risk of wasteful spending, disruption
                                                                                           Lack
                 to Government operations, and vulnerability to lawsuits,
                                                                                       of a proper
                 claims, and penalties if it does not include appropriate            warranty clause
                 language in software license contracts that is, geared             could lead to the
                 to protect the best interests of the DON. For example,        disruption of Government
                                                                               operations or the need to
                 when a contract includes unacceptable language,                purchase other software
                 such as the contract that contained a 90‑day                    or software services to
                 warranty instead of 1 year from the first use of the             improve or continue
                                                                                       operations.
                 product, the vendor has no obligation to fix software that
                 malfunctions after 90 days. This lack of a proper warranty
                 clause could lead to the disruption of Government operations or the need to purchase
                 other software or software services to improve or continue operations. In addition to
                 warranties, the inclusion of unacceptable language or silence in areas such as transfer
                 rights, termination rights, and audit rights could result in wasteful spending of funds as
                 well as disruption to Government operations. For example, the contracts that were silent
                 on transfer rights or that allowed transfer only within the program that purchased it,
                 could have unused licenses that could fill the needs of another DON program. However,
                 because the contracts are silent and the EULA does not allow for transfer to other
                 programs, DON could be forced to purchase additional licenses to meet the needs of
                 another program instead of using licenses already owned.

                 In addition, when a contracting officer accepts audit terms that allow a vendor to inspect
                 a DoD facility and records to verify compliance, they risk exposing DoD information and
                 incurring more costs if DoD must pay for the audit. Further, when vendors are allowed to
                 establish licensing agreements directly with individual end users rather than negotiating
                 an overall software licensing agreement with the contracting officer, the risk increases
                 that software will be misused or improper licensing terms will be accepted. This can
                 result in vendor claims or disputes with DoD in the future.




14 │ DODIG-2013-115
                                                                                                    Finding



Management Comments on the Finding and
Our Response
Management Comments on Cost-Saving Efficiencies
The DON CIO submitted general comments, stating that the DON CIO identified
Enterprise  Software Licensing as a primary DON efficiency target to achieve
cost-savings. He stated that through policy and Integrated Product Team actions, the
efficiency initiative has realized significant progress contributing over $73 million in
current and projected savings using the two Department-wide ELAs awarded to date.
He further stated that as DON continues to establish ELAs, they are implementing
lessons learned and management best practices including those identified in our
recommendations.

Our Response
We commend the DON CIO on the efforts taken to lower prices and increase savings
within the DON.


Recommendations, Management Comments, and
Our Responses
Recommendation 1
We recommend that the Assistant Secretary of the Navy (Research, Development
and Acquisition):

        a.	Require all Navy contracting personnel involved in preparing and
           issuing software license contracts to take specialized training that
           ensures software license contracts include only appropriate language
           that protects the best interest of the Government.

Deputy Assistant Secretary of the Navy for Acquisition and
Procurement Comments
The Executive Director for the Deputy Assistant Secretary of the Navy for Acquisition
and Procurement (DASN [AP]) responded for the ASN (RDA) and agreed, stating that the
DASN (AP) will issue a memorandum requiring Navy contracting personnel involved in
preparing and awarding software license contracts to take specialized training that ensure
software license contracts include appropriate language to protect the best interest of the
Government. The Executive Director further stated that DASN (AP) would complete the
memorandum for issuance within 30 days after DON CIO identifies the available training
in accordance with recommendation 2.c.



                                                                                          DODIG-2013-115 │ 15
Finding



                 Our Response
                 The Executive Director’s comments were responsive, and no additional comments
                 are required.

                         b.	Develop a plan of action and milestones in conjunction with the
                            Department of the Navy Chief Information Officer to ensure that
                            contracting officers take software licensing training before issuing any
                            future software license contracts.

                 Deputy Assistant Secretary of the Navy for Acquisition and
                 Procurement Comments
                 The Executive Director responded for ASN (RDA) and agreed stating that DASN(AP) will
                 coordinate with the DON CIO to develop a plan of action and milestones to ensure that
                 applicable contracting personnel take software licensing training prior to issuing any
                 future software license contracts. The Executive Director stated that DASN(AP) would
                 also complete the plan of actions and milestones within 30 days after DON CIO identifies
                 the dates and types of available training as recommended in recommendation 2.c.


                 Our Response
                 The Executive Director’s comments were responsive, and no additional comments
                 are required.


                 Recommendation 2
                 We recommend that the Department of the Navy Chief Information Officer:

                         a.	Determine whether it is in the Government’s interest to modify the
                            Microsoft enterprise license agreement’s language regarding warranty
                            and embedded third-party software and take appropriate action.

                 Department of the Navy Chief Information Officer Comments
                 The Chief Information Officer agreed, stating that the DON CIO, in collaboration with the
                 ASN (RDA), will review the DON Microsoft ELA, which is currently in its second option
                 year of a three-option-year agreement, regarding the warranty and embedded third‑party
                 software to assess impact and risk of incorporating this language at this point in the
                 implementation of the current ELA. The Chief Information Officer further explained that
                 in conducting the review, the DON will benchmark its DON Microsoft ELA with other
                 DoD and Federal Agency Microsoft enterprise licenses that are available for review, as




16 │ DODIG-2013-115
                                                                                                  Finding



well as with DoD ESI Blanket Purchase Agreements and any related Federal Acquisition
Regulation and General Services Administration Schedule 70 provisions. Following the
review, the DON will take appropriate action.


Our Response
The Chief Information Officer’s comments were responsive, and no additional comments
are required.

        b.	 Require individuals to include the same or similar language, related to
           warranty and embedded third-party software, provided in the software
           license training, when preparing enterprise license agreements for
           the remaining software opportunities identified in the February 2012
           memorandum, “Mandatory Use of Department of the Navy Enterprise
           Licensing Agreements,” or require the individuals to document how
           and why they determined and accepted the risk of not including the
           recommended language.

Department of the Navy Chief Information Officer Comments
The Chief Information Officer agreed stating that through collaboration between
ASN‑(RDA) and DON CIO, the DON plans to incorporate best practices, terms, and
conditions into future DON ELAs and is building and expanding on its commercial
software licensing expertise through its multi-organizational and multifunctional
DON Enterprise Software Licensing team. The Chief Information Officer further stated
that the DON is participating in DoD-level enterprise software license projects through
ESI that have a focus on EULAs and commercial software licensing best practices. Finally,
he stated that in any DON ELAs they will specifically address warranty and embedded
third-party software terms and conditions in documentation that provides rationale if a
determination was made not to include the provisions.


Our Response
The Chief Information Officer’s comments were responsive, and no additional comments
are required.

        c.	 Develop and issue a memorandum identifying the types of training—
           providing knowledge to determine the appropriate language needed
           in the contracts and acceptable and unacceptable language required
           in End User License Agreements—available to contracting officers who
           prepare software license contracts.




                                                                                        DODIG-2013-115 │ 17
Finding



                 Department of the Navy Chief Information Officer Comments
                 The Chief Information Officer agreed, stating that the DON CIO, in collaboration with
                 ASN  (RDA), will consult with the Defense Acquisition University to explore enhancing
                 software licensing content of appropriate course offerings. The Chief Information Officer
                 further stated that the DON CIO will continue to offer training sessions on topics related
                 to EULAs and make related training content available via the DON CIO and DoD  ESI
                 websites. Finally, he stated that the DON will conduct market research on available
                 training on commercial software licensing and communicate availability to ASN (RDA)
                 and apply appropriate methods to achieve the broadcast awareness by DON contracting
                 and IT professionals.


                 Our Response
                 The Chief Information Officer’s comments were partially responsive. Although the Chief
                 Information Officer plans to collaborate with ASN (RDA) to make efforts toward enhancing
                 training content and will communicate availability of trainings to DON contracting and
                 IT professionals as well as ASN (RDA), he did not include any timelines to achieve this
                 broadcast awareness. Because the timeframe that DASN (AP), under the authority
                 of ASN  (RDA), agreed to issue a memorandum requiring Navy contracting personnel
                 involved in preparing and issuing software license contracts to take specialized training
                 in Recommendation 1.a. is based on DON CIO identifying the available trainings, it is
                 critical that the DON CIO sets a reasonable timeline for completing this task. We request
                 that the Chief Information Officer provide additional comments in response to the final
                 report that include a timeline for completing the noted tasks and providing awareness
                 of these opportunities to DON contracting and IT professionals.




18 │ DODIG-2013-115
                                                                                                  Appendix




Appendix
Scope and Methodology
We conducted this performance audit from July 2012 through May 2013 in accordance
with generally accepted Government auditing standards. These standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective.

We conducted this audit to determine if the DON included appropriate clauses in software
procurement contracts. We focused our audit on commercial off-the-shelf software
contracts issued by the DON in order to review the contract writing practices of DON
contracting offices. We selected a nonstatistical sample of Navy contracts active in
FY 2012: 1 ELA contract and 13 non-ELA contracts. We received assistance from the
Quantitative Methods Division in selecting this nonstatistical sample.

We conducted our review using the most current version of the Army CHESS training,
which DoD ESI modified and Army CHESS issued in September 2012 under the name,
“Software that Goes Bump in the Night Brief.” Based on the DoD ESI and CHESS level
of expertise, we considered the best practices listed in the “Software that Goes Bump in
the Night Brief” training to be reasonable. We did not perform any tests to determine if
the best practices were sufficient to protect the Government’s best interest fully when
acquiring software licenses.

The “Software that Goes Bump in the Night Brief” training presents the top 11 most
occurring areas of concern regarding the acquisition of software licenses. It discusses the
suggested DoD ESI’s Buyer Checklist requirement for each of the 11 areas and includes
examples of acceptable and unacceptable language to look for in contracts and EULAs for
each area. For each contract, we reviewed the base contract and the EULA (or equivalent
document) provided by the contracting officer, to ensure the contract files included the
desirable language and excluded unacceptable language in accordance with each of these
11 areas of concern. Specifically, for all identified language applicable to the 11 areas of
concern, the audit team would refer back to the “Software that Goes Bump in the Night
Brief” training to verify whether the included language was desirable, acceptable, or
unacceptable. When we found a contract that was silent in any of the 11 areas, we would




                                                                                           DODIG-2013-115 │ 19
Appendix



                 assess whether it was acceptable or unacceptable for that area to be silent by determining
                 whether it was in the Government’s best interest to address the areas in the contract based
                 on the stated best practice for that specific topic. We made the following determinations:

                          •	 Desirable: Contract documents that included the desirable language per
                            the examples provided in the “Software that Goes Bump in the Night Brief”
                            training for the 11 reviewed areas of concern.

                          •	 Acceptable: Contract documents that were silent (no language included) to
                            the areas of concern: Third-party software (embedded), audit rights, click
                            wrap license, automatic renewals, governing law, installation restrictions,
                            and virtualization. When a contract did not include unacceptable language
                            for these specific areas of concern, we determined that the Government was
                            not required to perform under those unacceptable terms. Therefore, because
                            the contract documents were completely silent to these specific areas, they
                            were acceptable.

                          •	 Unacceptable: Contract documents that were silent (no language included)
                            to the areas of concern: Warranty, transfer rights, termination rights, and order
                            of precedence (acceptable for EULA to be silent). Also in this category are the
                            contract documents that included unacceptable language per the examples
                            provided in the “Software that Goes Bump in the Night Brief” training for the
                            11 reviewed areas of concern.

                 Use of Computer-Processed Data
                 We did not use computer-processed data to perform this audit.


                 Use of Technical Assistance
                 We obtained support from the DoD Office of Inspector General Quantitative Methods
                 Division on sampling methodology. Considering the lack of a Navy Software Licensing
                 Contracts’ database, Quantitative Methods Division assisted the audit team in formulating
                 the steps necessary to select a nonstatistical sample for review.


                 Prior Coverage
                 No prior coverage has been conducted on the Navy, including appropriate clauses in
                 software procurement contracts, during the last 5 years.




20 │ DODIG-2013-115
                                                 Management Comments




Management Comments
Deputy Assistant Secretary of the Navy for Acquisition
and Procurement




                                                         DODIG-2013-115 │ 21
Management Comments



                 Deputy Assistant Secretary of the Navy for Acquisition
                 and Procurement (cont’d)




22 │ DODIG-2013-115
                                                   Management Comments



Department of the Navy Chief Information Officer




                                                         DODIG-2013-115 │ 23
Management Comments



                 Department of the Navy Chief Information Officer
                 (cont’d)




24 │ DODIG-2013-115
                                                   Management Comments



Department of the Navy Chief Information Officer
(cont’d)




                                                         DODIG-2013-115 │ 25
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                      ASN (RDA) Assistant Secretary of the Navy (Research, Development, and Acquisition)
                            CIO Chief Information Officer
                          CHESS Computer Hardware Enterprise Software and Solutions
                      DASN (AP) Deputy Assistant Secretary of the Navy (Acquisition and Procurement)
                         DFARS Defense Federal Acquisition Regulation Supplement
                           DON Department of the Navy
                            ELA Enterprise Licensing Agreement
                             ESI Enterprise Software Initiative
                           EULA End User License Agreement
                            FAR Federal Acquisition Regulation
                              IT Information Technology




26 │ DODIG-2013-115
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
